                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number:       A08020003                                                              Page 1 of 1   .




             Our investigation determined that the SubjectI intentionally fabricated data for a series of
     assay measurements that appeared in a research publication and in a proposal submitted to NSF.
     NSF made a finding of research misconduct by the Subject; sent a letter of reprimand to the
     Subject; debarred the Subject for three years; required the Subject to submit certifications to the
     Assistant Inspector General for Investigations (AlGI), NSF OIG for three years after debarment
     ends; required the Subject's employer to submit assurances to ;theAIGI ofNSF OIG for three
     years after debarment ends; prohibited the Subject from serving as a reviewer ofNSF proposals
     for three years; and required the Subject to provide certification to the AlGI that he has
     completed a course in ethics covering research misconduct.

             This memo, the attached Report of Investigation, and the Deputy Director's letters
     constitute the case closeout. Accordingly, this case is closed.




      1
          Mr. Matthew   Connors.
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




      OFFICE OF THE
        DIRECTOR




VIA CERTIFIED MAILIRETURN RECEIPT REQUESTED


Matthew Connors




        Re: Notice ofDebarment


Dear Mr. Connors:

On March 8, 2011, the National Science Foundation ("NSF") issued to you a Notice of Proposed
Debarment ("Notice"), in which NSF proposed to debar you from directly or indirectly obtaining
the benefits of Federal grants for a period of three years. As reflected in the Notice, NSF
proposed your debarment for fabricating data for a series of assay measurements. This data
subsequently appeared in a research publication and in a proposal submitted to NSF. In addition,
NSF took additional administrative actions against you in accordance with NSF's regulations
governing research misconduct. In that Notice, NSF provided you with thirty days to respond to
the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until March 7, 2014. Debarment precludes you from receiving Federal financial and
non-financial assistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CFR 180.135. Non-procurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
insurance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period ofthls debarment.
2 CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch ofthe Federal Government.
                                                                                              - 2 -
Lastly, please note that, in the March 8, 2011, Notice, NSF also took the following actions
against you, which continue to remain in effect:

    • 	 From the end of your debarment period through March 6, 2017, you are required to
        submit certifications to NSF's Office of Jnspector General that any ~osals or reports
        you submit to NSF do not contain plagiarized, falsified, or fabri"cated material.

    • 	 From the end of your debarment period through March 6,2017, you are required to
        submit assurances by a responsible official of your employer that any proposals or reports
        you submit to NSF do not contain plagiarized, falsified, or fabricated material. These
        assurances must be submitted to NSF's Office of Inspector General.

   • 	 You are prohibited from serving as a reviewer of NSF proposals until March 1,2014.

   • 	 You are, required to complete an ethics training course covering research misconduct no
       later than March 1,2012. You must certify in writing to NSF's Office of Inspector
       General that such training has been completed.


Should,you have any questions regarding the foregoing, please contact                Assistant
General Counsel, at (703) 292-8060.




                                                 ~~ Dr. Wanda Ward
                                                    Senior Advisor to the Director
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230


                                            MAR 0 8 ZOU




 CERTIFIED MAIL --RETURN RECEIPT REQUESTED

 Matthew Connors




        Re: Notice ofProposed Debarmentand Notice ofResearch Misconduct Determination


Dear Mr. Connors:

As documented in the attached investigative report prepared by the National Science
Foundation's ("NSF") Office of Inspector General ("OIG"), you fabricated data for a series of
assay measurements. These data appeared in a research publication and in a proposal submitted
to NSF. In light of your misconduct, this letter serves as formal notice that the National Science
Foundation ("NSF") is proposing to debar you from directly or indirectly obtaining the benefits
of Federal grants for a period of three years. During your period of debarment, you will be
precluded from receiving Federal financial and non-financial assistance and benefits under non-
procurement Federal programs and activities. In addition, you will be prohibited from receiving
any Federal contracts or approved subcontracts under the Federal Acquisition Regulations
("FAR"). Lastly, during your debarment period, you will be barred from having supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Government.

In addition to proposing your debarment, I am requiring that you complete an ethics course
covering research misconduct, and certify in writing to the OIG that you have completed such a
course. Furthermore, for three years after the period of debarment expires, I am requiring you to
submit certifications and assurances by a responsible official of your employer that any
proposals or reports submitted to NSF do not contain plagiarized, falsified, or fabricated
material. Lastly, you are barred from serving as a reviewer of NSF proposals for three years.


Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism proposing or performing research funded by NSF ..." 45 CFR 689.1 (a). NSF
                                                                                              Page 2
defines "fabrication" as "making up data or results and recording or reporting them." 45 CFR
689.1 (a)(l). A finding of research misconduct requires that:

        (1) There 	be a significant departure from accepted practices of the relevant research
            community; and
        (2) The research misconduct be committed intentionally, 	or knowingly, or recklessly;
            and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

As the DIG's report demonstrates, you fabricated data for a series of assay measurements, and
these data appeared in a research publication, and in a proposal submitted to NSF. Thus, your
conduct unquestionably constitutes fabrication. I therefore conclude that your actions meet the
applicable definition of "research misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
misconduct was committed intentionally and purposefully, and constituted a significant
departure from accepted practices ofthe relevant research community. I am, therefore, issuing a
finding of research misconduct against you.

NSF's regulations establish three categories' of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(1). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).

In determining the severity ofthe sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; the determination that it was committed intentionally and
purposefully; the determination that it was part of a pattern of misconduct; and the fact that your
conduct had an impact on the published research record. I have also considered other relevant
circumstances. 45 CFR 689.3(b).
                                                                                             Page 3
I, therefore, take the following actions:

    • 	 By March 1, 2012, you are required to complete an ethics course covering research
        misconduct. You must certify to the OIG that you have done so.

    • 	 For three years from the end of your debarment period, you are required to certify to NSF
        that any proposals, reports, or papers you submit in connection with NSF-funded research
        do not contain plagiarized, falsified, or fabricated material.

   • 	 For three years from the end of your debarment period, you are required to submit to NSF
       assurances by a responsible official of your employer that any proposals or reports you
       submit in connection with NSF-funded research do not contain plagiarized, falsified, or
       fabricated material.

   • 	 You are prohibited from serving as a reviewer of NSF proposals until March 1, 2014.


   All certifications and assurances should be sent to NSF's OIG, Assistant Inspector General
   for Investigations, 4201 Wilson Boulevard, Arlington, VA 22230.


Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

       (b) 	   Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1) 	   A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions; or


               (3) 	   A willful violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction;




      (d) 	    Any other cause of so serious or compelling a nature that it affects your present
               responsibility.
                                                                                             Page 4
In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you fabricated data, which
appeared in a research publication and an NSF proposal. Thus, your action supports a cause for
debarment under 2 CFR 180.800(b) and Cd).


Length ofDebarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circUlUstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period of
three years.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment


Appeal Procedures for Finding ofResearch Misconduct

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10Ca). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final. For your information, we are
attaching a copy of the applicable regulations.


Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy ofthe Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.
                                                                                          Page 5
Should you have any questions about the foregoing, please contact             Assistant
General Counsel, at (703) 292-   .




                                                   Sincerely,   /     .       ()

                                              od1-cmct~~
                                                  Dr. Wanda Ward
                                                  Senior Advisor to the Director



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
CONFIDEl"fTHL




      N'ational'Science Foundation
       Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A08020003
                          29 October 2010
This Confidential Report of Investigation contains confidential personal information, the
unauthorized disclosure of which may result in personal criminal liability under the Privacy
Act; 5 U.S.C. § 552a. This report is provided to you FOR OFFICIAL USE ONLY, and may
be further disclosed within NSF only to individuals who must have knowledge of its contents
to facilitate NSF's assessment and resolution of this matter. The report may be disclosed
outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
552a.

                                                                         NSF OIG Form 22b (11/06)
CONFIDENTIAL 	                                                                    CONFIDENTIAL



                                      Executive Summary


The University's investigation established that:

   • 	 The Subject fabricated data for a series of assay measurements, and these data appeared
       in a pUblication and in a proposal submitted to NSF.

OIG concludes that:

   • 	 Act: The Subject fabricated data for a series of assay measurements.
   • 	 Intent: The Subject acted intentionally.
   • 	 Significant Departure: The Subject's acts were a significant departure from accepted
       practices of the research community.
   • 	 Standard of Proof: A preponderance of the evidence supports a finding that the Subject
       committed research misconduct.

OIG recommends that NSF:

   •	   Make a finding of research misconduct by the SUbject;
   •	   Send a letter of reprimand to the Subject;
   •	   Debar the Subject for 3 years;
   •	   Require the Subject to submit certifications to the Assistant Inspector General for
        Investigations (AlGI), NSF OIG for 3 years after debarment ends;
    • 	 Require the Subject's employer to submit assurances to the AlGI of NSF OIG for 3 years
        after debarment ends;
    • 	 Prohibit the Subject from serving as a reviewer ofNSF proposals for 3 years after
        debarment ends; and
    • 	 Require the Subject to provide certification to the AlGI ofNSF OIG that he has
        completed a course in ethics training within 1 year of the finding of research misconduct.




                                                1
CONFIDENTIAL                                                                                   CONFIDENTIAL



                                                 Case Initiation

        We received notice from a Universityl that it had completed an inquiry into an allegation
of research misconduct by the Subject,2 and that it was moving forward to an investigation of the
matter. The inquiry established substance to an allegation that fabricated data had appeared in a
publication3 acknowledging NSF support, and within a proposal submitted to NSF. 4 We
referred an investigation to the University, which accepted the referral. 5

                                         University's Investigation

        At the completion of the University inquiry report,6 and consistent with its policy,7 the
University established an Academic Fraud Inquiry Committee (AFIC), operating under the
University Standing Committee on Academic Fraud (SC), to investigate the allegation. At the
end of the first phase of the University investigation, we received a copy of the AFIC report. s
The Subject, who had previously been terminated from his position at the University, declined to
participate in the investigation, and provided no comments on the report.

         The AFIC concluded that the Subject fabricated assay data that were used to create a
figure in a publication. This figure also appeared in a proposal submitted to NSF. The AFIC
established that the Subject was the sole person responsible for 1) completing the assays, which
included delivering samples to a central core facility for analysis, and 2) communicating assay
results to his colleagues via a spreadsheet included with an emaiL The AFIC found that the
central core facility had no records of any assay samples submitted by the Subject.9 The AFIC
was unable to find original assay printouts from the facility in any laboratory records belonging
to the SUbject. lo The AFIC further established that no invoices were billed to the research
laboratory during the period when the Subject was responsible for completing the assays.ll

        In addition, the AFIC completed a comparative statistical analysis of the purported assay
data provided by the SUbject. l2 The analysis showed that the Subject's data were inconsistent in
numerical format with genuine data from the facility, and that the reported measurement values


                          The notification letter is at Tab 1, along with a copy of the
                                 was a senior technician then                 the




                      and funded by NSF.
publication. The proposal is at Tab 3.
   Our referral of investigation letter is at Tab 4.               .
6 The report (Tab I) included a number of supporting documents in electronic form; all supporting documents are
included with the electronic copy of this report of investigation.
7 Tab 5.
8 AFIC report, Tab 6.
9 AFIC report, Tab 6, page 6.
10 AFIC report, Tab 6, page 7.
11 AFIC report, Tab 6, page 6.
12 AFIC report, Tab 6, page 7.




                                                          2
CONFIDENTIAL                                                                                       CONFIDENTIAL



were inconsistently distributed when compared with genuine data. The AFIC therefore
concluded that the data submitted by the Subject 13 were fabricated, and that the fabricated data
were sent by the Subject to his colleagues via email on 12 separate occasions between April 2004
and November 2005. 14

        The AFIC did not address the Subject's intent, and University policy (Tab 5) is silent on
the need to do so. University policy specifies the evidentiary standard for research misconduct
investigations as "more likely than not that academic fraud has been committed.,,15 However,
the AFIC report does not discuss the evidentiary standard used to support its conclusions.
Finally, according to University policy, the issue of a potential pattern of behavior by the Subject
is addressed by a second independent investigation carried out by the Standing Committee on
Academic Fraud (SC). This committee also determines whether corrections of the research
literature or retractions of publications are warranted.

        Accordingly, the SC (report at Tab 7) assessed the issue of a potential pattern of behavior
by the Subject after the AFIC completed its report. Based on the AFIC report and its own
review, the SC concluded that the Subject fabricated the data. Although the University
terminated the Subject from employment due to falsification of entries in lab records, the SC
concluded that this previous falsification of the laboratory records "plainly did not constitute
academic fraud," but was instead "serious" misconduct,16 and therefore there was no pattern of
academic fraud by the Subject. Finally, the SC concluded that the data fabricated by the Subject
was possibly used as the basis for two presentations at scientific conferences, but concluded that
there is no available remedy17 to correct the presentation of fabricated data in those venues. The
SC report (Tab 7) did not address retraction of the published work.

        The University Provost: 18 1) took actions to ensure that the Subject could not be
employed in the future by the University; 2) communicated his expectation to the faculty authors
that the publication containing the fabricated data be retracted; 3) suggested to the relevant
Deans that faculty members involved attend workshops or conferences on research ethics; and 4)
communicated a finding of research misconduct against the Subject to the Subject's last-known
employer. 19




                                             OIG's Investigation

13 The Subject's fabricated data were used in Figure 6 of the publication and Figure 9b of the proposal.
14 AFIC
15
                                                         Section 4.B.3, page 4 (Tab 5).
16 SC report, Tab 7, page 2, viz. "So it appears that     Subject's] misconduct, serious as it was, caused no harm.
In any event it plainly did not constitute academic fraud."
17 SC report, Tab 7, page 2.
18 The Provost's Q.UI""""uuv letter is at Tab 8. The Provost's actions were taken prior to issuance of the SC report.
19




                                                          3
CONFIDENTIAL                                                                                        CONFIDENTIAL




        On receipt of the AFIC report, we wrote to the Subject informing him of the resumption
of our investiffiation, attached a copy of the report, and invited the Subject to comment on the
AFIC report? The Subject did not respond to our letter.

        We asked the University for documents not included with its report, such as notes of
interviews and copies of emails relevant to the investigation. Several of the authors on the
publication had filed a patent application21 that seemed likely to include the Subject's fabricated
data, and accordingly, we asked the University about the status ofthis patent application. The
University22 stated that the patent application had been withdrawn.

        Our review of the University report indicates that it was accurate and resulted in
reasonable conclusions. In late 2005, members ofthe research group had questions about the
low variability displayed by the data and began to run experiments to validate the data.
Eventually, a second researche~3 was assigned to perform the assays originally completed by the
Subject, and fOtmd that the results could not be reproduced. In addition, this researcher later
discovered that the original data printouts for the assays were absent from the lab notebooks.
Also, the research group never received any billing invoices for the assays generated by the
subject. The only billing invoices they received were for assay analyses completed by the
second researcher.

        Based on poor performance and false entries into laboratory notebooks, the University
terminated the Subject's employment in February 2007 Finally, an explicit allegation of data
fabrication was made to a faculty member24 in July 2007, at which time the University inquiry
process began.

       The evidence provided within the University report, and additional information we
requested, clearly demonstrates that the subject fabricated data and conveyed that data to his
colleague, via email, on a dozen separate occasions over a 19~month period. These data were
used in the development of manuscripts submitted to three separate journals as well as a
presentation at an annual conference and an NSF proposaL




                                last known address was returned. We determined a valid email for the Subject
                     -':111'1,''''1'1,'"

                                                           and with his agreement, sent him an electronic copy ofthe
                                            no comments on the university report.
                                        The inquiry report (Tab 1) contains information about the patent application,
but neither the University's AFIC nor SC report considered the possibility that fabricated data were used in it.
22 The additional material is included at Tab 6.
23                                    researcher then at the
24




                                                           4
    CONFIDENTIAL                                                                                    CONFIDENTIAL



            The table summarizes case-related actions:




    March 2004 - November 2005                Subject solely responsible for performing assay
                                                            . measurement results sent to


    Fall 2005


!   October 28, 2005                            UU''''''"lVU   experiment prepared with supposedly scrambled

    November 18,2005


    November 20, 2005
                                                                                                                 that

    December 2005                             Second researcher begins assay measurements; Subject's
                                              results cannot be
    December 2005                             First invoices for assay measurements billed to faculty
                                              member
    January 4, 2006                           Patent application filed that included Subject's fabricated
                                              data
    May 9, 2006                               Manuscript submitted to third journal; Subject's data is the
                                              same as in the first two submissions26
    September 19, 2006                        NSF proposal submitted

    December 20, 2006                         Revised manuscript submitted to third journal, and accepted
                                              for
    February 2007                             Subject's employment at University terminated for cause,
                                                              ect's falsified entries in          records
    July 2007                                 Absence of assay printouts in core service lab confirmed;
                                            • allegation of research misconduct by Subject made to faculty
                                              member, who relayed the allegation to University
                                              administration
    August 20, 2007                           Subject explicitly denies fabrication of data in response to an
                                              email from a           member27

    2S ~ report (Tab 1) describes the samples as scrambled, with the code recorded in the laboratory notebook
    of _ _. The AFIC report, however, states (Tab 6, page 5) that no "frrst-hand evidence" for the code could be
    found in the notebook, and concluded that the samples were not scrambled.
    26 AFIC report, Tab 6, page 4.
    27 Subject's email response (Item 10, "RE") to                          included with the inquiry report at Tab 1.


                                                                5
CONFIDENTIAL                                                                                       CONFIDENTIAL




                                               OIG's Assessment

        Based on our review, we conclude that the University AFIC and SC reports are
reasonably accurate in describing Subject's fabrication of data. A finding ofresearch
misconduct by NSF requires that 1) there be a significant departure from accepted practices of
the relevant research community; that 2) the research misconduct be committed intentionally, or
knowingl~, or recklessly; and that 3) the allegation be proved by a preponderance of the
evidence. 8

                                                      The Act

         The Subject fabricated assay data and conveyed it in 12 separate emails to his
colleagues. 29 The spreadsheets of data sent through email by the Subject to his colleagues were
not populated with random numbers, but with data purposefully chosen to support the desired
conclusion. These fabricated data were presented at research meetings, published in the research
literature, and included in a proposal submitted to NSF. Fabrication of data is a serious departure
from the accepted practices of the scientific community.

        Benos et al. 3o provides a succinct description of the egregious nature of data fabrication,
and its proper characterization as a significant departure from accepted practices: "First and
foremost, it dilutes the integrity of other scientific research, both from that author(s) and from
others in the field. Second, ifleft undiscovered, it could waste other researchers' time and efforts
attempting to replicate or build on the data presented in a falsified paper. Third, it jeopardizes the
public trust in the scientific enterprise. ml



        We conclude that Subject's actions were purposeful (intentional). The Subject
methodically created data to support the expected experimental result. The Subject repeatedly
communicated fabricated data to others. The Subject took no action to prevent the continuing
use of fabricated data in presentations, patent applications, a publication, and a proposal
submitted to NSF.

                                                Standard ofProof

         The lack of documentation (laboratory notebook entries, printed output, instrument logs,
or billing invoices) for the Subject's assay data, and its failure to conform to the character of


28  45 C.F.R. §689.2(c).
29  Inquiry report, Tab 1, Item 4.
30 D. J. Benos, J. Fabres, J. Fanner, J. P. Gutierrez, K. Hennessy, D. Kosek, J. H. Lee, D. Olteanu, T. Russell, F.
Shaikh, and K. Wang, "Ethics and scientific publication." Adv. Physiol. Educ., 29, 59-74 (2005).
doi:1O.1152/advan.00056.2004
31 Ibid, page 61.




                                                          6
CONFIDENTIAL                                                                                        CONFIDENTIAL



genuine data, establishes that the data provided by the Subject were fabricated. This, combined
with the fact that the Subject alone was responsible for acquisition of that data, establishes by a
preponderance of the evidence that the data were fabricated by the Subject.

       We conclude that the Subject's intentional acts of data fabrication are a significant
departure from accepted practice and therefore constitute research misconduct.

                          Subject's Response to the Draft Investigation Report

We sent a draft copy of this report to the Subject for comments. We received no comments.

                                            OIG's Recommendations

         When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: 1) how serious the misconduct was; 2) the degree to which the misconduct was
reckless, knowing, or intentional; 3) whether it was an isolated event or part of a pattern;
4) whether it had a significant impact on the research record, research subjects, other researchers,
institutions or the public welfare; and 5) other relevant circumstances. 32

                                                     Seriousness

       Fabrication of data undermines the core of research integrity, and subverts not only
immediate research conclusions, but also the process through which science progresses.
Accordingly, the Subject's repetitive fabrication of data rises to a seriousness that justifies
debarment for an extended period to preclude his participation in research supported by federal
awards.

                                        Degree to which the Act was Intentional

        The Subject fabricated data that purported to be results ofan assay for the release of a
chemical from treated cells. The Subject purposefully fabricated the data so that they would
exhibit the expected pattern, and did so repeatedly. This action requires both a willingness to
accomplish this deceit, as well as an understanding of the expected result. Thus, the data
fabrication is an egregiously intentional act.

                                                        Pattern

        The Subject exhibited a pattern of research misconduct through multiple instances of data
fabrication 33 for assays that were never actually performed. The Subject reported fabricated
results to his colleagues through email on 12 separate occasions.J4




32   45 C.F.R. §689.3(b).
33   The AFIC report reveals that fabricated assay data was sent to the Subject's colleagues on multiple occasions.
34   Inquiry report, Item 4 (Tab 1).


                                                            7
CONFIDENTIAL                                                                          CONFIDENTIAL


                                                Impact on the research record

        The research publication in which the fabricated data appeared has been cited 14 times
since its appearance, including in research reviews. 35 Although an allegation ofresearch
misconduct was determined to have substance in January 2008,36 one of the authors3? of the
publication in which the fabricated data appeared cited the compromised publication in a review
paper submitted in May 2008, and published in September/October of2008 38 without additional
notice. As of the date of this report, a retraction for the paper has not yet appeared.

                                                  Recommendation

           Based on the evidence in this case, NSF OIG recommends that NSF:

      •	  Make a finding of research misconduct; and
      •	  Send a letter of reprimand to the Subject;39 and
      •	  Debar the Subject for a period of 3 years;40 and
      •	  Require the Subject to certify that any proposals and reports he submits to NSF do not
          contain plagiarized, falsified or fabricated material for 3 years after debarment ends;41
          and
      • 	 Require the Subject's employer to submit assurances that any proposals and reports the
          Subject submits to NSF do not contain plagiarized, falsified or fabricated material for 3
          years after debarment ends;42 and
      • 	 Prohibit the Subject from serving as a reviewer of NSF proposals for 3 years after
          debarment ends;43 and
      • 	 Require the Subject to provide certification that he has completed a course in ethics
          training within one year of the finding of research misconduct. 44


The Subject's certifications and proof of ethics course should be sent to the Assistant Inspector
General for Investigations for retention in OIG's confidential file on this matter.




35   The citation list is included at Tab 9.
36                          I),
37
38
                                                                                   included at Tab 9.
39   This is listed as a Group I action, 45 C.F.R. § 689.3(a)(l)(i).
40   Debarment is a Group III action, 45 C.F.R. § 689.3(a)(3)(iii).
41   A certification is similar to Group I actions, 45 C.F.R. § 689.3(a)(1).
42   This is listed as a Group I action, 45 C.F.R. § 689.3(aXI)(iii).
43   This is listed as a Group III action, 45 C.F.R. § 689.3(a)(3)(ii).
44   Ethics training is similar to Group I actions, 45 C.F.R. § 689.3(a)(1).


                                                             8
